OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/SUDAN’S
MODERN ENERGY SERVICES
PROGRAM
AUDIT REPORT NO. 4-650-11-003-P
DECEMBER 29, 2010




PRETORIA, SOUTH AFRICA
 
Office of Inspector General 


December 29, 2010

MEMORANDUM

TO:                  USAID/Sudan Mission Director, William Hammink

FROM:                Regional Inspector General/Pretoria, Christine M. Byrne /s/

SUBJECT:             Audit of USAID/Sudan’s Modern Energy Services Program
                     (Report No. 4-650-11-003-P)

This memorandum transmits our final report on the subject audit. The report includes three
recommendations to strengthen USAID/Sudan’s Modern Energy Services Program. In finalizing
the report, we considered your comments on our draft report and included those comments in
Appendix II.

Based on management’s comments and the supporting documentation provided, we consider
that management decisions have been reached on all recommendations, with final action taken
on Recommendation 3. Please provide the Office of the Chief Financial Officer’s Audit
Performance and Compliance Division with the necessary documentation to achieve final action
on Recommendations 1 and 2.

I want to express my sincere appreciation for the cooperation and courtesy extended to my staff
during the audit.




U.S. Agency for International Development
100 Totius Street X5
Pretoria, South Africa 0027
www.usaid.govoig
CONTENTS
Summary of Results ................................................................................................................... 1

Audit Findings............................................................................................................................. 5

     Contractor Did Not Provide Adequate Quality
     Control..................................................................................................................................... 5

     Yei Electricity Cooperative Lacked Effective
     Internal Controls...................................................................................................................... 6

     Subcontractor Did Not Manage Beneficiary
     Expectations Effectively .......................................................................................................... 6

Evaluation of Management Comments.................................................................................... .8

Appendix I – Scope and Methodology ...................................................................................... 9

Appendix II – Management Comments ................................................................................... 11




    Abbreviations

    The following abbreviations appear in this report:

    ADS                 Automated Directives System
    CPA                 Comprehensive Peace Agreement
    GoSS                Government of Southern Sudan
    LBG                 Louis Berger Group
    NRECA               National Rural Electric Cooperative Association, International Ltd.
    RIG/Pretoria        Regional Inspector General/Pretoria
    YECO                Yei Electricity Cooperative
 



SUMMARY OF RESULTS
Sudan is a leading country for U.S. foreign assistance in sub-Saharan Africa and one of the
U.S. Government’s highest foreign policy priorities. Sudan’s 2005 Comprehensive Peace
Agreement, reached after decades of civil war, attempts to address regional disparities between
underdeveloped regions and the capital, Khartoum. USAID/Sudan’s primary goal is to promote
the implementation of the peace agreement.

Among other things, the Comprehensive Peace Agreement (CPA) provides for a 6-year interim
period during which Southern Sudan is to be governed by an autonomous entity called the
Government of Southern Sudan (GoSS). After the interim period, Southern Sudan will decide in
a referendum whether to become independent or to continue as a self-governing component of
a unified Sudan. USAID’s broad range of programs in Southern Sudan is intended to support
the implementation of the CPA, with a long-term goal of assisting the peaceful and democratic
transformation envisioned by the framers of the CPA.

Historical underdevelopment, followed by decades of war and neglect, has left Southern Sudan
with minimal infrastructure. The GoSS Ministry of Energy and Mining has identified the
electrification of market towns as a priority. Electrification is intended to encourage private
sector investment.

As part of its continuing effort to help GoSS develop Southern Sudan’s electricity sector, in
August 2007 USAID signed a 4-year task order with the Louis Berger Group (LBG) to implement
the Modern Energy Services Program at a total cost of $13,302,600. 1 The main goals of this
program are constructing and implementing sustainable electricity generation and distribution
systems in selected rural market towns of Southern Sudan. The primary subcontractor under
this task order is the National Rural Electric Cooperative Association, International Ltd.
(NRECA). According to LBG, as of August 31, 2010, $9.7 million had been obligated under this
task order.

The Regional Inspector General/Pretoria (RIG/Pretoria) conducted this audit to determine
whether the program was achieving its main goals of constructing and implementing sustainable
electricity generation and distribution systems in Kapoeta, Maridi, and Yei (shown in the map on
page 4). Auditors found that USAID/Sudan’s Modern Energy Services Program was achieving
its goals although delays had necessitated revising the implementation schedule.




1
  This task order was the third under a 5-year, $700 million indefinite quantity contract with the Louis
Berger Group for the Sudan Infrastructure Services Project. An indefinite quantity contract provides for
an indefinite quantity, within stated limits, of funding during a fixed period. Specific services are procured
through task orders issued under the indefinite quantity contract.


                                                                                                            1
 


The program was supporting Southern Sudan’s electric system through both construction
projects and technical assistance. The Yei electrification project, initiated under a previous
cooperative agreement, had been turned over to the Yei Electricity Cooperative (YECO)
(pictured below), and the program was providing continuing technical assistance to YECO.




          Transformers changing the voltage and/or phase of electricity produced by
          generators at the Yei Electricity Cooperative in Southern Sudan. (Photo by
          RIG/Pretoria, February 2010)

Beneficiaries in Yei stated that electrification had improved their economic welfare and physical
security. Also, an evaluation firm hired by USAID stated that residents had mentioned that
some businesses in Yei were able to stay open longer hours since people felt more secure at
night. Further, overall commercial activity in Yei had increased, partly because of the
electrification project and partly because of a population increase.

Yet construction at Kapoeta and Maridi lagged, mostly because of disagreements at the outset
between GoSS and implementing partners over the location of program sites. After construction
began, mission officials were concerned that the program was not proceeding satisfactorily.
After a site visit in July 2009, the USAID contracting officer’s technical representative noted that
the program was not meeting key performance benchmarks. For example, as of June 30, 2009,
approximately two-thirds of the implementation period had elapsed but only about one-fifth of
the budget had been spent. The mission asked for and received from LBG a revised plan for
improving performance. In response, LBG officials acknowledged that although selected
deliverables had not been completed in accordance with the original work plan, the officials did
not believe that the delays had impacted the program’s “critical path.” LBG also stated that the
mission had based its financial analysis on invoices that LBG had submitted rather than on
construction amounts obligated, thus underestimating the portion of the budget that had been
committed to the program.

During fieldwork, auditors found that electric utility construction was behind its original schedule
but was progressing according to new revised timelines. Generators were expected to arrive on
time according to the revised schedules. Electric poles and electrification equipment and


                                                                                                  2
 


materials were largely in place and ready to be installed. Auditors’ observations of site
preparations and construction in Kapoeta and Maridi showed satisfactory progress according to
revised schedules, while a cost report as of December 31, 2009, did not indicate any cost
overruns.

After audit fieldwork was completed, a USAID consultant indicated that the schedule had
slipped an additional 2 months because of delays in the procurement and delivery of
generators. The consultant stated that LBG and its subcontractor did not report these delays
until June 2010. While the revised schedule calls for Kapoeta's generator to be installed and
commissioned by November 26, 2010, and for Maridi's to be installed and commissioned by
December 14, 2010, the consultant believed that the utilities would not be established and
electric power available until early 2011.

Security concerns and poor roads in Southern Sudan hindered USAID/Sudan’s monitoring of
program activities. Unannounced visits were not possible because of the need to coordinate
transportation arrangements with security contractors. The mission was able to monitor
progress by reviewing weekly, monthly, and quarterly reports prepared by NRECA. While the
mission’s site visits would be more frequent under normal circumstances, the audit found that
the visits made were effective; officials brought several program deficiencies to the contractor’s
attention and demanded prompt corrective action.

In addition to the delays and the limitations on the mission’s ability to monitor activities, the audit
disclosed these problem areas:

•   The contractor did not provide adequate quality control (page 5).
•   YECO lacked effective internal controls (page 6).
•   The subcontractor did not manage beneficiary expectations effectively (page 6).

To improve the program’s performance and chances of success, the audit recommends that
USAID/Sudan:

1. Direct the prime contractor to develop a quality control plan for the program and
   develop procedures to monitor the prime contractor’s implementation of that plan (page 5).

2. Devise and implement a plan to help ensure that YECO has adequate internal controls to
   promote its long-term sustainability (page 6).

3. Require that beneficiaries are informed about program milestones and timelines (page 7).

Detailed findings follow. Information on the audit scope and methodology appears in
Appendix I, and the full text of management comments appears in Appendix II. Our evaluation
of management comments is on page 8.




                                                                                                     3
 




Map of Sudan. Maridi, Yei, and Kapoeta appear in the states of Western Equatoria, Central
Equatoria, and Eastern Equatoria. Source: United Nations.




                                                                                       4
AUDIT FINDINGS
Contractor Did Not Provide
Adequate Quality Control
According to the program’s fiscal year 2010 work plan, LBG was to provide oversight,
management, and quality control during implementation. Despite this requirement, LBG was
not actively performing quality assurance of work done by its subcontractor—specifically, the
subcontractor’s procurements of materials like those shown below.                Specifications for
procurements were set in work plans. NRECA determined whether the materials ordered and
delivered were in accordance with those specifications, with little or no review by LBG.




      Electrification materials and electric poles like these in Kapoeta and Yei are subject to
      quality assurance by the prime contractor. (Photos by RIG/Pretoria, February 2010)

LBG has generally maintained a hands-off approach to managing NRECA, intervening only
when NRECA has had problems dealing with GoSS. Although LBG assigned an additional staff
member to the program in response to concerns about delayed implementation that the mission
voiced during its July 2009 site visit, LBG has focused on activities under other task orders of
the Sudan Infrastructure Services Project. Mission officials stated that NRECA was managing
the program with very little oversight from LBG. For example, an NRECA engineer in Kapoeta
stated that NRECA determined the quality of the electrification materials and equipment
procured, with no quality assurance functions provided by LBG. Because LBG was focused on
other activities in Sudan, such as construction of the Juba-Nimule Road, it did not fulfill its
technical oversight responsibilities under this program.         Without adequate oversight,
management, and quality control during the implementation of program activities by the prime
contractor, USAID cannot be sure that the quality of work meets USAID’s standards and
beneficiaries’ expectations.

   Recommendation 1. We recommend that USAID/Sudan (1) direct the Louis Berger
   Group to develop and implement a quality control plan for Modern Energy Services
   Program activities; and (2) develop and implement policies and procedures for
   monitoring the Louis Berger Group’s quality control activities.




                                                                                                  5
Yei Electricity Cooperative Lacked
Effective Internal Controls
To help ensure that USAID’s programs are successful instruments of U.S foreign policy, the
Agency published Nine Principles of Development and Reconstruction Assistance. In short, the
principles list the characteristics of successful assistance programs necessary to achieve
various development objectives such as economic growth and improved governance.

Sustainability—designing programs so that their impact endures—is one of those nine core
principles of development and reconstruction assistance. A critical element of sustainability is
proper stewardship of financial assets, which requires a well-designed accounting system
backed by effective internal controls. The Standards for Internal Control in the Federal
Government, published by the U.S. Government Accountability Office, contains guidance on
establishing and maintaining effective controls—for example, by segregating key duties and
responsibilities to reduce the risk of error or fraud. For YECO, key duties include authorizing,
processing, and recording transactions, as well as maintaining custody of related assets. YECO
management’s responsibilities include being accountable to an outside authority that reviews
the cooperative’s operations and finances.

Despite the necessity of effective internal controls to sustain program impact, the audit
disclosed that YECO lacked such controls. For example, during a site visit, the audit team
observed little segregation of duties in accounting functions. Furthermore, no outside authority
was reviewing and approving YECO’s electricity generation and distribution policies and related
financial operations.

Insufficient internal controls existed for several reasons. First, YECO’s small staff did not permit
adequate segregation of duties. Furthermore, members of the board of directors that would
normally oversee the cooperative’s management had not yet been sworn in. Thus, the
cooperative did not have an independent oversight system or other necessary internal controls
in place to help ensure the program’s sustainability.

   Recommendation 2. We recommend that USAID/Sudan develop and implement a plan
   for establishing adequate internal controls at the Yei Electricity Cooperative in order to
   promote its long-term sustainability.

Subcontractor Did Not Manage
Beneficiary Expectations Effectively
According to USAID’s Nine Principles of Development and Reconstruction Assistance,
partnership is another principle crucial to the success of U.S. foreign assistance. Partnership
entails close collaboration between USAID and the governments and communities it assists.
Part of this close collaboration involves informing stakeholders of estimated dates for
completion. However, the residents and county executives of Maridi did not know when their
town would get electricity. Those interviewed in February 2010 said they had expected to have
electric power by January 2010 after a 1-kilometer street-lighting ceremony was held in
September 2009 (shown below). Maridi residents still had not received electricity 1 year after
this demonstration, primarily because of the delays in generator procurement and delivery
discussed previously.




                                                                                                  6
           Residents of Maridi gather and circulate under 1 kilometer of demonstration
           street lighting. (Photo by RIG/Pretoria, February 2010)

According to the NRECA program manager, NRECA did not inform community stakeholders
because it was too early to give specific timelines. The manager explained that divulging
specific timelines would cause the community to hold the implementers to such dates
unreasonably. This explanation, however, is contrary to the principle of partnership in effective
foreign assistance. In July 2009, a USAID official informed the prime contractor that “the
officials for Maridi County complain of project delays and lack of information.” Despite this
notification, Maridi officials and residents still had not been informed of program timelines by the
subcontractor as of February 2010. During audit fieldwork, USAID officials were unaware that
the community still lacked this information.

Effective partnership calls for information—including schedule delays and revisions—to be
shared early and often with the governments and communities being assisted. A USAID
consultant informed the audit team in September 2010 that, in a step toward strengthening the
partnership between USAID and its beneficiaries, mission and contractor officials had traveled
to Maridi to launch a community awareness campaign.

Nevertheless, because implementers did not share information with the community in a timely
manner, beneficiaries were left with unreasonable expectations produced by the street-lighting
ceremony. Through discussions with residents of Maridi, the auditors found that frustrations
had developed in the community when expectations were not met, potentially reducing some of
the public diplomacy benefits of U.S. foreign assistance. Consequently, the audit makes the
following recommendation.

   Recommendation 3. We recommend that USAID/Sudan require the Louis Berger
   Group to confirm in writing that its subcontractor, National Rural Electricity Cooperative
   Association, regularly informs residents about program status.




                                                                                                  7
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft report, the mission agreed with all three recommendations. The
mission’s comments are summarized below, followed by the audit team’s evaluation of those
comments.

Recommendation 1. The audit recommended that the mission direct the Louis Berger Group to
develop and implement a quality control plan for Modern Energy Services Program activities, as
well as institute its own policies and procedures to monitor the Louis Berger Group’s quality
control activities. In response, the mission stated that it will instruct LBG to prepare a quality
control/quality assurance plan for Task Order 3. In addition, the mission stated that it expected
to develop policies and procedures for monitoring LBG’s quality control activities by January 31,
2011. Accordingly, a management decision has been reached on Recommendation 1.

Recommendation 2. The audit recommended that the mission develop and implement a plan
to establish adequate internal controls at the Yei Electricity Cooperative. The mission
responded that it would assess YECO’s financial status before December 31, 2010, to inform
the development of internal controls that will be reviewed by the mission controller prior to
implementation. In a subsequent communication, the mission indicated it plans to complete
implementation by September 30, 2011. Accordingly, a management decision has been
reached on Recommendation 2.

Recommendation 3. The draft report recommended that the mission require the Louis Berger
Group to confirm in writing that its subcontractor regularly informs residents about program
status and that the Louis Berger Group performs site visits to verify that residents are being kept
informed. In response, the mission stated that stakeholder consultation meetings were held in
September and October 2010 in Maridi and Kapoeta. Furthermore, the mission indicated it will
require monthly updates from LBG on information sharing between its subcontractor and
residents in Maridi and Kapoeta. Because the documents provided by the mission made it
evident that residents were being kept informed of program status, we eliminated the second
part of the recommendation that LBG perform site visits to confirm this fact. Therefore, on the
basis of management’s comments and the supporting documentation provided, a management
decision has been reached and final action taken on Recommendation 3.




                                                                                                 8
                                                                                        Appendix I



SCOPE AND METHODOLOGY
Scope
The Office of Inspector General conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform
the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings
and conclusions in accordance with our audit objective. We believe that the evidence obtained
provides that reasonable basis.

Our audit objective was to determine whether USAID/Sudan’s Modern Energy Services
Program was achieving its main goal of constructing and implementing sustainable electricity
generation and distribution systems. Audit fieldwork was conducted at USAID/Sudan from
February 16 to March 5, 2010. The audit spanned program implementation, from start-up in
2007 to the conclusion of fieldwork. The program was Task Order 3 under the Sudan
Infrastructure Services Project indefinite quantity contract, which built on a prior cooperative
agreement with NRECA. Task Order 3 has a total cost-plus-fee budget ceiling of $13,302,600.
As of November 2009, $9.7 million had been obligated under this task order, which remained
constant through August 2010. Our audit focus was more procedural than financial, although
we considered the reasonableness of spending in relation to accomplishments to date.

In planning and performing the audit, the audit team assessed the risk of illegal acts, including
fraud, in the mission’s Modern Energy Services Program. In conjunction with this assessment,
we also assessed management controls for ensuring compliance with applicable laws,
regulations, and policies regarding the Modern Energy Services Program.

Specifically, we reviewed the following:

•   Reports required under the Federal Managers’ Financial Integrity Act, Public Law 97-255 of
    1982 (as codified in 31 U.S.C. 1105, 1113, and 3512)
•   Office of Management and Budget Circular A-123, Management’s Responsibility for Internal
    Control
•   Implementing partner contracts and subcontracts
•   Performance measures and results
•   Certifications by the contracting officer’s technical representative
•   Trip reports prepared by mission officials and consultants
•   Correspondence between officials from USAID and LBG
•   Quarterly progress reports prepared by LBG
•   Cost estimates and projections
•   The SISP (Sudan Infrastructure Services Project) Market Town Electrification Survey
    Report, prepared by NRECA

We also conducted interviews with current and former officials of USAID/Sudan, LBG, NRECA,
the GoSS Ministry of Energy and Mining, and a Deloitte & Touche consultant employed by
USAID/Sudan to assist GoSS with the electricity legislation. Audit fieldwork included visits to
the LBG/NRECA offices, the Ministry of Energy and Mining and Ministry of Legal Affairs, and
NRECA’s modern energy program plant locations and offices in Kapoeta, Yei, and Maridi. We




                                                                                                 9
                                                                                      Appendix I


also visited the offices of the county commissioners in those towns. We conducted additional
analysis and interviews by e-mail at the offices of RIG/Pretoria on our return from Sudan.

Methodology
To answer the audit objective, we first interviewed mission officials to determine the main goals
of USAID/Sudan’s Modern Energy Services Program.                  We then reviewed pertinent
documentation such as the contractor’s performance management plan and the USAID/Sudan
strategy statement. Next, we determined the best method to assess whether those main goals
were being achieved. Since the program had not been finished, the performance indicators
designed to measure the impact on beneficiaries were of only limited utility in answering the
audit objective. As a result, we concluded that interviews with beneficiaries in Yei, in
conjunction with observations of the completed plant there, would provide a good basis for our
assessment of achievement of the mission’s goals under Task Order 3. Regarding the activities
in Kapoeta and Maridi, we decided that reviewing the agreed-on work plans, timelines, and
costs, as well as the construction in progress at these sites or preparations for construction,
supplemented by interviews of implementing partners and local officials, would provide evidence
for answering the audit objective. Therefore, we traveled to the sites in Kapoeta, Yei, and
Maridi to undertake those observations and interviews.

We also interviewed an official from the Ministry of Energy and Mining, as well as a consultant
from Deloitte & Touche hired by USAID/Sudan for his knowledge of the progress of the legal
framework for rural electrification in Southern Sudan. Finally, we examined quarterly reports
prepared by LBG, trip reports completed by mission officials, and program reports and timelines
prepared by NRECA.

Given the unfinished status of the Kapoeta and Maridi electric plants, we determined that
assessments of the implementation schedules, costs to date, and projected costs would be of
central importance to users of this report. To this end, we reviewed work plans and cost
estimates. We also interviewed various mission and NRECA officials. Regarding the utility
plant construction and procurement of electrification equipment and materials for Kapoeta and
Maridi, we examined the structures, electrification materials, and equipment at these locations,
as well as documentation at the mission, for significant items—such as vehicles—already
ordered or approved for payment. We also reviewed timelines and discussed with engineers
their estimation of cost performance to determine whether activities would stay within budget.

In addition to the documents named above, we used the following sources to develop criteria or
provide additional information contained in the report:

•   USAID’s indefinite quantity contract with LBG and Task Order 3 issued under the contract
•   LBG’s subcontract with NRECA
•   Executive Order 13224
•   Automated Directives System (ADS) Chapter 308, “Grants and Cooperative Agreements
    with Public International Organizations”
•   ADS 302, “Direct Contracting,” and ADS 310, “Source, Origin, and Nationality”
•   USAID Policy—Nine Principles of Development and Reconstruction Assistance

Because of the nature of the audit objective, we did not establish a materiality threshold, but
rather utilized auditor judgment in answering the objective.




                                                                                              10
                                                                                        Appendix II



MANAGEMENT COMMENTS


Date:           November 09, 2010

To:             Regional Inspector General/Pretoria, Christine M. Byrne

From:           USAID/Sudan Mission Director, William Hammink /S/

Subject:        Audit of USAID/Sudan’s Modern Energy Services Program
                (Report No. 4-650-11-00X-P)

We would like to thank the RIG/Pretoria team for preparing an audit report that is thorough and
will strengthen USAID/Sudan’s Energy infrastructure activities. USAID/Sudan is pleased to
provide comments on the report including the position of USAID/Sudan on the
recommendations as stated below:

      Recommendation 1. We recommend that USAID/Sudan (1) direct the Louis Berger
      Group to develop and implement a quality control plan for Modern Energy
      Services Program activities; and (2) develop and implement policies and
      procedures for monitoring the Louis Berger Group’s quality control activities.

USAID/Sudan accepts this recommendation and will instruct LBG to prepare a Quality
Control/Quality Assurance (QC/QA) plan for Task Order 3 that will be reviewed and approved by
USAID. In addition to the QC /QA plan, USAID will develop policies and procedures for
monitoring the quality control guidelines. We have hired a local Sudanese Engineer who
together with our Senior Infrastructure Adviser will closely follow up the final installations and
commissioning of the electric utilities. The development of the policies and procedures is
expected to be complete by January 31, 2011.

      Recommendation 2. We recommend that USAID/Sudan develop and implement a
      plan for establishing adequate internal controls at the Yei Electricity Cooperative
      in order to promote its long-term sustainability

USAID/Sudan accepts this recommendation and is already placing more emphasis on the
sustainability and internal controls. The USAID Sudan Senior Economist is assisting the
Economic Growth Office in preparing requirements for internal controls of the utilities. The utility
management internal controls will be reviewed by our Controller before implementation. To
achieve this, USAID will before the end of December 2010, carry out an assessment of YECO’s
financial status that will inform the direction of these financial controls.

      Recommendation 3. We recommend that USAID/Sudan require the Louis Berger
      Group to confirm in writing that its subcontractor, National Rural Electricity
      Cooperative Association, regularly informs residents about program status and


                                                                                                 11
                                                                                   Appendix II


   that the Louis Berger Group itself perform site visits to verify that residents are
   being kept informed

USAID/Sudan accepts this recommendation and is happy to report that the LBG/ NRECA team
have already started implementing this recommendation based on discussions held with the
RIG Audit team in May 2010. In September 2010 and October 2010, NRECA organized
stakeholder consultation meetings in Maridi and Kapoeta respectively. During these meetings,
stakeholders were educated on the implementation program as well as options for utility service
provider formation and management. We shall require monthly updates from Louis Berger on
information sharing between NRECA and stakeholders /local communities in Maridi and
Kapoeta. Mission requests closure of this recommendation upon issuance of the report.




                                                                                            12
U.S. Agency for International Development
       Office of Inspector General
      1300 Pennsylvania Avenue, NW
          Washington, DC 20523
            Tel: 202-712-1150
            Fax: 202-216-3047
           www.usaid.gov/oig
